HHS/OIG-Audit--"Review of the Hiring and Managing Practices for Appointed Consultant and Experts in the Department of Health and Human Services, (A-15-91-00011)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the Hiring and Managing Practices for Appointed Consultants
and Experts in the Department of Health and Human Services," (A-15-91-00011)
June 11, 1992
Complete Text of Report is available in PDF format
(409 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report discusses the need for the Department of Health and Human
Services (Department) to strengthen its controls over the hiring and managing
of appointed consultants and experts. Our review disclosed that the internal
controls over hiring and managing consultants and experts needs strengthening
to ensure that consultants and experts: are free from financial conflicts-of-interest;
are not improperly detailed and recertified; time and attendance is accurately
reported; quality of work is evaluated; and hiring approvals are obtained in
compliance with prevailing policies and procedures. Also, we found many instances
of noncompliance with prescribed policies, procedures and regulations.